NO. 18- 14545-DD

SURPERME COURT OF THE UNITED STATES

MARLINA CALHOUN PETITIONER,
V.
WAL-MART STORES EAST LLP RESPONDENT (SI
PROOF OF SERVICE
I. MARLINA CALHOUN ___ , do swear or declare that on this date,
FEBRUARY 13, ,2021
., as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing.
an envelope containing the above documents in the United States mail properly
addressed. To each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
MARLINA CALHOUN
1515 BETTS MILL RD
AUBURN GA 30011
Tel: 404-407-0750
30325
Email: ms.calhounl969@yahoo.com

MCLAIN & MERRIT P.C
ROBERT HILL
3445 #500 PEACHTREE RD.N.E.
ATLANTA GA

I declare under penalty of perjury that the foregoing is true and correct.
Executed on, FEB 13, 2021

Page 38 of:

NO. 18-_14545-DD
IN THE
SUPREME COURT OF THE UNTED STATES
MARLINA CALHOUN PETITIONER
V.
WAL-MART STORES EAST LLC RESPONDENT

ON PETITION FORA WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
MARLINA CALHOUN
1515 BETTS MILL RD
AUBURN GA 30011
Tel: 404-407-0750

MCLAIN & MERRIT P.C
ROBERT HILL
3445#500 PEACHTREE RD.N.E
ATLANTA GA 30325

To whom it may concern. The Plaintiff had the files sent before.
The Person sent it to the court of appeals. There a letter attached.
They wound'nt sent me back me records. So, I Had to recopy
everything and resent. Please excuse the Lateness .We did talk so
you are aware of the issues. The Plaintiff
Plaintiff, Marlina Calhoun

